No. ______
In the

Supreme Court of the United States
__________________
JERI LYNN RICH, as representative for Gavrila Covaci
Dupuis-Mays, an incapacitated person,
Petitioner,
v.
MICHAEL PALKO, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
__________________
PETITION FOR WRIT OF CERTIORARI
__________________
John E. Wall, Jr.
Counsel of Record
LAW OFFICES OF JOHN E.
WALL, JR.
5728 Prospect Avenue
Suite 2001
Dallas, Texas 75206-7284
(214) 887-0100 (telephone)
(214) 887-0173 (tele copier)
jwall@jwall-law.com
Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
The Court’s “collateral order” doctrine permits
interlocutory appeal with a two- pronged test for a
government official’s claim to qualified immunity:
(i) whether the official violated a constitutional right,
and (ii) whether the right was clearly established in the
context involved.
When determining jurisdiction to review, some
Circuits require the appellant to 1) stipulate to the
Plaintiff’s version of the facts; 2) accept the trial courts’
recitation of the facts; 3) or review the trial courts’
identification of material disputes of fact for legal
sufficiency only and 4) when there are no specific
findings by the trial court, remand for the findings or
“scour the record” for the disputed issues of material
fact that might suggest a Constitutional violation.
Also, some lower courts, including the Fifth Circuit,
also bifurcate the second prong and separately ask
whether the defendant’s conduct was objectively
unreasonable. This can result in factual reasonableness
being considered in the second prong.
Accordingly, the question presented is: When
courts are deciding qualified immunity in Fourth
Amendment cases, shouldn’t they recite the trial
court’s identification of the disputed issues of material
fact regarding the seizure and excessive force when
exercising “collateral order” jurisdiction and before
applying the second, “clearly established” prong of the
test?

ii
PARTIES TO THE PROCEEDINGS
Jeri Lynn Rich, is petitioner here and was
plaintiff-appellee below.
Michael Palko and Keith Duane Hudgens, are the
respondents here and were defendants-appellants
below.
STATEMENT OF RELATED PROCEEDINGS
Jeri Lynn Rich as representative for Gavrila Covaci
Dupuis-Mays, an incapacitated person v. Michael
Palko; Keith Duane Hudgens, No. 18-40415 (United
States Court of Appeals for the Fifth Circuit) 920 F.3d
288 (5th Cir 2019). (judgment issued as the mandate
on May 15, 2019).
Jeri Lynn Rich as representative for Gavrila Covaci
Dupuis-Mays, an incapacitated person v. The City of
McKinney, Texas, No. 4:16-CV-870-ALM-KPJ (In the
United States District Court Eastern District of Texas,
Sherman Division). (memorandum adopting report and
recommendation of United States Magistrate judge
entered on March 13, 2018).
There are no additional proceedings in any court
that are directly related to this case.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 11
A. Palko and Hudgen’s Conduct Found
By the Magistrate Judge and District
Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
B. The Decisions Below . . . . . . . . . . . . . . . . 15
REASONS FOR GRANTING THE PETITION . . . 17
I.

The Fifth Circuit’s Exercise of Collateral
Order Jurisdiction confounds the question of
when the “Collateral Order” doctrine applies.
Despite a cogent and specific review by the
Magistrate Judge and Trail Court which
identified the disputed issues of material fact
and the constitutional violations, the Court
never questioned jurisdiction.. . . . . . . . . . . . 17

iv
II.

The Fifth Circuit’s Decision Transforms the
Second Prong of Qualified Immunity by
Injecting Factual Reasonableness into the
Inquiry . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

III.

Circuit Courts Are Divided in How They
Define and Apply the Second Prong of
Qualified Immunity. . . . . . . . . . . . . . . . . . . . 25

IV.

The Court Should Resolve the Confusion
Surrounding Consideration of Factual
Unreasonableness in the Qualified Immunity
Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

V.

The Fifth Circuit’s Decision is Erroneous . . 34

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(April 3, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Adopting Report and
Recommendation of United States
Magistrate Judge in the United States
District Court for the Eastern District
of Texas
(March 13, 2018) . . . . . . . . . . . . . App. 18
Appendix C Report and Recommendation of
United States Magistrate Judge in the
United States District Court for the
Eastern District of Texas
(January 8, 2018) . . . . . . . . . . . . App. 26

v
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Fifth Circuit
(May 7, 2019) . . . . . . . . . . . . . . . App. 54

vi
TABLE OF AUTHORITIES
CASES
Abraham v. Raso,
183 F.3d 279 (3d Cir. 1999) . . . . . . . . . . . . . . . . 33
Addington v. Texas,
441 U.S. 418, 99 S. Ct. 1804 (1979) . . . . . . . 13, 35
Anderson v. Creighton,
483 U.S. 635 (1987). . . . . . . . . . . . . . . . . . . . . . . 30
BMW of North America, Inc. v. Gore,
517 U.S. 559 (1996). . . . . . . . . . . . . . . . . . . . . . . 32
Bailey v. Pataki,
708 F.3d 391 (2d Cir. 2013) . . . . . . . . . . . . . . . . 26
Bazan ex rel. Bazan v. Hidalgo Cnty.,
246 F.3d 481 (5th Cir. 2001). . . . . . . . . . . . . . . . 20
Behrens v. Pelletier,
516 U.S. 299, 116 S. Ct. 834, 133 L. Ed. 2d 773
(1996). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Berryman v. Rieger,
150 F.3d 561 (6th Cir. 1998). . . . . . . . . . . . . . . . 21
Brown v. Miller,
519 F.3d 231 (5th Cir. 2008). . . . . . . . . . . . . . . . 35
Bunting v. Mellen,
541 U.S. 1019 (2004). . . . . . . . . . . . . . . . . . . . . . 31
Burlington Northern & Santa Fe Ry. Co. v. White,
548 U.S. 53 (2006). . . . . . . . . . . . . . . . . . . . . . . . 24

vii
Camreta v. Greene,
131 S. Ct. 2020 (2011). . . . . . . . . . . . . . . . . . . . . 31
CarePartners LLC v. Lashway,
545 F.3d 867 (9th Cir. 2008), cert. denied,
129 S. Ct. 2382 (2009). . . . . . . . . . . . . . . . . . . . . 28
Charles v. Grief,
507 F.3d 342 (5th Cir. 2007). . . . . . . . . . . . . . . . 20
City of Escondido v. Emmons,
139 S. Ct. 500, 202 L. Ed. 2d 455 (2019) . . . . . . 25
Cole v. Carson,
905 F.3d 334 (5th Cir. 2018). . . . . . . . . . . . . . . . 21
Cowan v. Breen,
352 F.3d 756 (2d Cir. 2003) . . . . . . . . . . . . . . . . 28
Crawford-El v. Britton,
523 U.S. 574 (1998). . . . . . . . . . . . . . . . . . . . . . . 30
Dean v. Phatak,
911 F.3d 286 (5th Cir. 2018). . . . . . . . . . . . . . . . 19
Dunigan v. Noble,
390 F.3d 486 (6th Cir. 2005). . . . . . . . . . . . . . . . 28
Estate of Escobedo v. Bender,
600 F.3d 770 (7th Cir. 2010), cert. denied,
131 S. Ct. 463 (2010). . . . . . . . . . . . . . . . . . . . . . 28
Estate of Sorrells v. City of Dallas,
45 Fed. Appx. 325, 2002 WL 1899592 (5th Cir.),
cert. denied, 537 U.S. 1072 (2002) . . . . . . . . . . . 24
Felton v. Polles,
315 F.3d 470 (5th Cir. 2002). . . . . . . . . . . . . . . . 24

viii
Finley v. Johnson,
243 F.3d 215 (5th Cir. 2001). . . . . . . . . . . . . 12, 13
Gonzales v. Dallas Cnty.,
249 F.3d 406 (5th Cir. 2001). . . . . . . . . . . . . . . . 21
Gonzalez v. City of Schenectady,
728 F.3d 149 (2d Cir. 2013) . . . . . . . . . . . . . . . . 26
Gould v. Davis,
165 F.3d 265 (4th Cir. 1998). . . . . . . . . . . . . . . . 29
Graham v. Connor,
490 U.S. 386, 109 S. Ct. 1865, 104 L. Ed. 2d 443
(1989). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 35
Grawey v. Drury,
567 F.3d 302 (6th Cir. 2009). . . . . . . . . . . . . . . . 27
Gutierrez v. Kermon,
722 F.3d 1003 (7th Cir. 2013). . . . . . . . . . . . . . . 18
Hamilton v. Kindred,
845 F.3d 659 (5th Cir. 2017). . . . . . . . . . . . . . . . 19
Harlow v. Fitzgerald,
457 U.S. 800 (1982). . . . . . . . . . . . . . . . . . . . . . . 30
Hensley v. Gassman,
693 F.3d 681, (6th Cir. 2012), cert. denied,
133 S. Ct. 1800 (2013). . . . . . . . . . . . . . . . . . . . . 27
Holzemer v. City of Memphis,
621 F.3d 512 (6th Cir. 2010). . . . . . . . . . . . . . . . 27
Hope v. Pelzer,
536 U. S. 730, 739, 122 S. Ct. 2508, 153 L. Ed.
2d 666 (2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ix
Humphrey v. Cady,
405 U.S. 504 (1972). . . . . . . . . . . . . . . . . . . . . . . 34
In re Gault,
387 U.S. 1 (1967). . . . . . . . . . . . . . . . . . . . . . . . . 34
Jackson v. Indiana,
406 U.S. 715 (1972). . . . . . . . . . . . . . . . . . . . . . . 34
Jemmott v. Coughlin,
85 F.3d 61 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . 17
Johnson v. Jones,
515 U.S. 304 (1995). . . . . . . . . . . . . . . . . . . . 18, 21
Jones v. Clark,
630 F.3d 677 (7th Cir. 2011). . . . . . . . . . . . . . . . 18
Jones v. United States,
527 U.S. 373 (1999). . . . . . . . . . . . . . . . . . . . . . . 32
Juarez v. Aguilar,
666 F.3d 325 (5th Cir. 2011). . . . . . . . . . . . . . . . 20
King v. Handorf,
821 F.3d 650 (5th Cir. 2016). . . . . . . . . . . . . . . . 18
Kinney v. Weaver,
367 F.3d 337 (5th Cir. 2004). . . . . . . . . . . 9, 16, 19
Knox v. Smith,
342 F.3d 651 (7th Cir. 2003). . . . . . . . . . . . . . . . 18
Kovacic v. Villarreal,
628 F.3d 209 (5th Cir. 2010). . . . . . . . . . . . . . . . 20
LaMont v. New Jersey,
637 F.3d 177 (3d Cir. 2011) . . . . . . . . . . . . . . . . 28

x
Maldonado v. Fontanes,
568 F.3d 263 (1st Cir. 2009) . . . . . . . . . . . . . . . . 28
O’Connor v. Donaldson,
422 U.S. 563, 95 S. Ct. 2486 (1975) . . . . . . . . . . 14
Palmer v. Johnson,
193 F.3d 346 (5th Cir. 1999). . . . . . . . . . . . . . . . 24
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . . . . . . 36
Quigley v. Tuong Vinh Thai,
707 F.3d 675 (6th Cir. 2013). . . . . . . . . . . . . . . . 27
Raspardo v. Carlone,
770 F.3d 97 (2d Cir. 2014) . . . . . . . . . . . . . . . . . 17
Russo v. City of Bridgeport,
479 F.3d 196 (2d Cir.), cert. denied, 552 U.S. 818
(2007). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Salazar-Limon v. City of Hous.,
137 S. Ct. 1277 (2017). . . . . . . . . . . . . . . . . . . . . 22
Salim v. Proulx,
93 F.3d 86 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . 17
Saucier v. Katz,
533 U. S. 194, 201, 121 S. Ct. 2151, 150 L. Ed.
2d 272 (2001). . . . . . . . . . . . . . . . 10, 22, 23, 25, 28
Short v. West,
662 F.3d 320 (5th Cir. 2011). . . . . . . . . . . . . . . . 18
Spaziano v. Florida,
468 U.S. 447 (1984). . . . . . . . . . . . . . . . . . . . . . . 32

xi
Specht v. Patterson,
386 U.S. 605 (1967). . . . . . . . . . . . . . . . . . . . . . . 34
Strand v. Minchuk,
910 F.3d 909 (7th Cir. 2018). . . . . . . . . . . . . . . . 18
Taravella v. Town of Walcott,
599 F.3d 129 (2d Cir. 2010) . . . . . . . 26, 27, 28, 31
Tarver v. Edna,
410 F.3d 745 (5th Cir. 2005). . . . . . . . . . . . . . . . 24
Tennessee v. Garner,
471 U. S. 1, 8, 105 S. Ct. 1694, 85 L. Ed. 2d 1
(1985). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Terebesi v. Torreso,
764 F.3d 217 (2d Cir. 2014) . . . . . . . . . . . . . . . . 17
Thompson v. Upshur Cnty., Tex.,
245 F.3d 447 (5th Cir. 2001). . . . . . . . . . . . . . . . 21
Tolan v. Cotton,
572 U.S. 650, 134 S. Ct. 1861 (2014) . . . 10, 16, 23
Trent v. Wade,
776 F.3d 368 (5th Cir. 2015). . . . . . . . . . . . . . . . 20
United States v. Armstrong,
951 F.2d 626 (5th Cir. 1992). . . . . . . . . . . . . 12, 13
Walczyk v. Rio,
496 F.3d 139 (2d Cir. 2007) . . . . . . . . . . 11, 26, 30
Zalaski v. City of Hartford,
723 F.3d 382 (2d Cir. 2013) . . . . . . . . . . . . . . . . 27

xii
CONSTITUTION
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES AND RULES
28 U.S.C. § 636 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Texas Health and Safety Code § 573.001 . . . . . . . . . 2
OTHER AUTHORITIES
Akil Reed Amar, The Bill of Rights as a
Constitution, 100 YALE L. J. 1131 (March 1991)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

1
PETITION FOR A WRIT OF CERTIORARI
Jeri Lynn Rich respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the court of appeals is reported at
920 F.3d 288 (5th Cir. 2019) and reprinted at Appendix
A. The trial court’s decision and the Magistrate Judges
memorandums are attached.
JURISDICTION
The court of appeals denied rehearing en banc on
May 2019. App. D. This Court has jurisdiction under
28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourth Amendment to the U.S. Constitution
provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
To protect the rights of those arrested for
mental health concerns,

2
Texas law provides:
a) A peace officer, without a warrant, may take
a person into custody if the officer:
1) has reason to believe and does believe that:
A. the person is a person with mental
illness; and
B. because of that mental illness there is
a substantial risk of serious harm to
the person or to others unless the
person is immediately restrained ; and
2) believes that there is not sufficient time
to obtain a warrant before taking the
person into custody.
b) A substantial risk of serious harm to the
person
1) the person’s behavior; or
2) evidence of severe emotional distress and
deterioration in the person’s mental
condition to the extent that the person
cannot remain at liberty
d) A peace officer who takes a person into
custody under Subsection (a) shall
immediately transport the apprehended
person to:
1) the nearest appropriate inpatient mental
health facility;
g) A peace officer who takes a person into
custody under Subsection (a) shall
immediately inform the person orally in
simple, nontechnical terms:
1) of the reason for the detention.
Texas Health and Safety Code § 573.001

3
42 U.S.C. § 1983 provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress….
INTRODUCTION
The trial Court referred the pretrial matters to the
Magistrate Judge pursuant to 28 U.S.C. § 636. The
Magistrate Judge made detailed findings from the
evidence, which follow below. (App. 27-34) The video
which supports these findings may be viewed
https://drive.google.com/drive/folders/1n-Z4Cxx8CqSe5VpmBr7pJEw1hhOP6k4.
“Gavrila Covaci Dupuis-Mays (“Mays”) sustained a
brain injury as an infant and has cerebral palsy,
mental retardation, and has been declared an
incapacitated person by the State of Texas. Mays also
has various physical and mental limitations including
limited utilization of his left hand, bi-polar disorder,
depression, traumatic brain injury, ADHD, epilepsy,
GERD, legal blindness (no peripheral vision), and uses
disposable briefs.

4
On July 11, 2015, Officers Palko and Hudgens were
called by Mays’ caseworker, Rhonda Holley (“Holley”)
to the group home in McKinney, Texas, where Mays
was living. Holley requested Mays be transported to
Green Oaks Hospital (“Green Oaks”), as he was in need
of inpatient care.
Defendant Officers arrived at the Group Home.
Defendant Officers made audio and video recording
(the “Hudgens Dashcam Video”) of their arrival to the
Group Home, their interaction with Dupuis-Mays and
D&S staff, and the subsequent transport of DupuisMays to Green Oaks in Dallas, Texas. The Hudgens
Dashcam Video shows that, when Defendant Officers
arrived at the Group Home, they had a brief
conversation with one of Dupuis-Mays’s caretakers.
The caretaker (whose name is unclear in the audio)
stated that Dupuis-Mays was becoming increasingly
psychotic and reported that Green Oaks told the Group
Home staff to bring him in for care. The caretaker
continued on to say that Dupuis-Mays was covered in
feces and that she and other staff did not feel safe
transporting him to Green Oaks and that they had
their children with them. Next, Defendant Officers
approached Dupuis-Mays and had an extended
interaction with him, talking with him about what was
happening that night and urging him to shower and
change clothes. During this interaction, Dupuis-Mays
remained calm and eventually agreed to shower and
put on clean clothes.

5
While Dupuis-Mays showered, personnel at the
Group Home spoke with Defendant Officers about the
events leading up to their arrival. Specifically,
Caseworker Holley stated that Dupuis-Mays had
defecated on himself, removed his clothes, and put
them on the porch of the Group Home. She also stated
that although Dupuis-Mays had not been physically
aggressive that particular night, he had been
physically aggressive in the past and was generally
being verbally aggressive and non-compliant with the
Group Home’s rules before Defendant Officers arrived.
The record before the Court showed that McKinney
Police officers were also called to the Group Home two
times earlier that same night in response to calls about
Dupuis-Mays’ non-compliant behavior.
Once Dupuis-Mays finished showering, he walked
back to Defendant Officers on his own volition.
Defendant Officers then allowed Dupuis-Mays to
smoke a cigarette outside, where they laughed and
talked casually for approximately ten minutes. After
the conversation, and nearly forty minutes after
arriving at the Group Home, Defendant Officers told
Dupuis-Mays he would be going for a ride in the police
car. Defendant Officers handcuffed Dupuis-Mays and
told him he would need to remain handcuffed while
riding in the police car. Before entering the police car,
Dupuis-Mays asked Defendant Officers if they could
remove the handcuffs. Defendant Officers told him they
could not, Dupuis-Mays also repeatedly asked if he was
going to jail, and Defendant Officers assured him he
was not.

6
As Defendant Officers transported Dupuis-Mays
from the Group Home to Green Oaks, they talked
casually with Dupuis-Mays, asked him about his
favorite types of music, and listened to the radio.
Defendant Officers arrived at Green Oaks with DupuisMays without any issue about thirty minutes after
leaving the group home.
Defendant Officers guided Dupuis-Mays into the
waiting room about twenty minutes after arriving at
the Green Oaks parking lot. Dupuis-Mays remained in
handcuffs and walked on his own, following Defendant
Officers as they entered the Green Oaks waiting room.
Once inside the Green Oaks waiting room, DupuisMays remained handcuffed and was placed in a chair
near the door to the triage room. After about fifteen
minutes, Dupuis-Mays stood up from the chair and
began speaking to Defendant Officers. The video shows
that after a few minutes of this interaction, Defendant
Officers pushed Dupuis-Mays back down to the chair to
restrain him. About ten seconds after being placed in
the chair, Dupuis-Mays appeared to spit towards
Defendant Officers. Defendant Officers immediately
turned away from the spitting then turned back
towards Dupuis-Mays, grabbed his head, and pushed
it down between his legs. Defendant Officers held
Dupuis-Mays in this position for nearly five minutes. A
few minutes later, a nurse came out from the triage
room to bring Dupuis-Mays in for further examination.
For this entire period, Dupuis-Mays remained
handcuffed.

7
Inside the Green Oaks triage room, after being in
handcuffs for nearly one-and-a-half hours, DupuisMays grew increasingly agitated and began making
angry expressions, such as “I hate cops” and “I hope the
cops die.” During this time, the triage nurse was
attempting to calm Dupuis-Mays down and assess his
medical needs; eventually, the triage nurse left the
room after Dupuis-Mays responded that he would not
calm down. When Dupuis-Mays was left in the triage
room alone with Defendant Officers, he remained
irritated and spit either in the direction of or on
Defendant Palko. Immediately after this, the video
shows that Defendant Palko stepped towards DupuisMays, grabbed him by the head, and took him towards
the ground with both hands; Defendant Hudgens also
moved towards Dupuis-Mays and assisted in taking
him to the ground. On the way to the ground, DupuisMays’ head was pushed into a metal file cabinet,
causing his head to bleed; the video shows blood stains
on the wall and on Dupuis-Mays’ face and clothing.
After the incident, Defendant Officers falsely told
Green Oaks staff that Dupuis-Mays “bumped his head
while they were not in the room.” Plaintiff submitted a
photo of the resulting injury to Dupuis-Mays; the photo
shows that Dupuis-Mays suffered a large laceration to
his head which required numerous staples.
Soon after the incident, Green Oaks staff contacted
Officer Terry Qualls of the McKinney Police
Department (“McKinney PD”) because they “wished to
report some concerns involving two McKinney Police
Officers over the weekend.” In response, an internal
investigation was initiated by the McKinney PD
Internal Affairs Division and Sergeant Randy Agan

8
(“Sergeant Agan”) was assigned to conduct the
investigation. On July 13, 2015, Green Oaks staff
reiterated their concerns to Sergeant Agan, stating
“that a review of the video showed more than what was
reported [by Defendant Officers] and requested that
[he] come view the video.” According to Sergeant
Agan’s report, that same day, he met with the Green
Oaks management team to review “the video of the
incident that gave them concern.”
Based on a review of the evidence, Sergeant Agan’s
“Administrative Investigation” report contains a
synopsis and analysis of the July 11, 2015, incident
involving Defendant Officers and Dupuis-Mays.
Sergeant Agan’s report stated that, after reviewing the
audio and video of the incident, he had numerous
concerns with the incident as reported by Defendant
Officers. Specifically, Sergeant Agan stated that “[i]t is
not clear other than violating house rules why Officers
Hudgens and Palko took Mays into custody” and “[t]he
report does not describe how Mays was a danger to
himself or others and if not taken into custody how he
posed such a threat.” Further, Sergeant Agan stated he
“did not see anything in the video to substantiate [the
claim that Dupuis-Mays was being aggressive towards
Defendant Officers in the Green Oaks triage room] as
Mays was sitting cuffed with his hands behind his back
and appeared to be talking.”
The Magistrate Judge made findings and
recommendations. The Defendants objected. The
District Court specified the disputed material issues of
fact supporting the claim the Officers violated the
Fourth Amendment in the seizure, the subsequent use

9
of excessive force and the falsification of the reports
following the event and denied qualified immunity on
both prongs. The officers appealed.
The plaintiff objected to the exercise of
jurisdiction citing Kinney v. Weaver, 367 F.3d
337(5th Cir. 2004) (en banc) because the facts as
recited by the Magistrate Judge and the Trial Court
were very detailed and specific. Both recited the paltry
evidence of probable cause and the unfounded basis for
beating a physically and mentally disabled person, who
is seated and handcuffed simply because he spit at the
officer in the triage room at Green Oaks.
Nevertheless, The Fifth Circuit panel exercised
jurisdiction and reversed and rendered applying a
hybridized analysis under the second prong, which asks
whether the right allegedly violated was clearly
established. But in supposedly applying the second
prong, the court actually performed the analysis that
constitutes the first prong and decided that Palko and
Hudgens acted reasonably considering the facts of the
encounter.
This happened because the Fifth Circuit sometimes
bifurcates the second prong of qualified immunity in
Fourth Amendment cases, accepts collateral order
jurisdiction and asks, not only whether the law was
clearly established when applied to the facts at hand,
but also whether the defendant’s conduct was
objectively unreasonable in light of that law.

10
This formulation nullifies the lower courts
considerable effort at evaluating the evidence to recite
the disputed evidence of material facts and permits the
Circuit Courts to consider the factual unreasonableness
of the arrest under the second prong despite this
Court’s teaching that the two prongs should remain
distinct and that factual unreasonableness is part of
the first prong. See Saucier v. Katz, 533 U.S. 194, 20406 (2001).
The exercise of collateral order jurisdiction in such
circumstances is contrary to law. The Fifth Circuit is
internally divided on the issue despite an en banc
decision.
The Court should grant the petition to resolve the
split in how courts apply “collateral order” jurisdiction
and interpret the second prong of qualified immunity.
When the Magistrate and the Trial Court spend
considerable effort reviewing the evidence for the
disputed issues of material fact regarding the clearly
established Constitutional transgressions and make
very specific factual recitations straight from the
record, injecting factual reasonableness into what is
supposed to be the purely legal, second prong immunity
analysis will confound the lower courts efforts in
deciding the issues. Also, the Fifth Circuit apparently
misapprehends Tolan v. Cotton.
As then-Judge Sotomayor recognized when
dissenting from the Second Circuit’s similarly
bifurcated version of the second prong, it will “give
defendants a second bite at the immunity apple,
thereby thwarting a careful balance that the Supreme
Court has struck” in fashioning the doctrine of

11
qualified immunity. Walczyk v. Rio, 496 F.3d 139, 166
(2d Cir. 2007) (Sotomayor, J., dissenting). The Court
should therefore review this case, reverse the decision
below, and permit Rich’s claim to proceed to trial.
STATEMENT OF THE CASE
A. Palko and Hudgen’s Conduct Found By
the Magistrate Judge and District Court
The “genuinely” disputed issues of material fact
were clearly recited by the Magistrate Judge. All the
facts supporting the Plaintiff’s argument that no
evidence supported probable cause and the force was
excessive came from police audio, video or the internal
affairs reports that flowed after the officers told Mays
he was going for a ride and that they would listen to
music. The Magistrate Judge recommended Palko and
Hudgens claim of qualified immunity be denied. The
officers appealed the Magistrate Judge’s ruling to the
District Court and attempted to boot strap new
arguments in the appeal. The District Court sustained
the Magistrate Judge’s reasoning and pointed out the
new arguments asserted by Palko and Hudgens were
waived and even if they weren’t, the new arguments
were factually impossible. (App. 20-24) The Fifth
Circuit’s published opinion didn’t address the disputed
issues as found in the trial court.
One of the new objections stated the officers who
arrested Mays somehow knew his psychiatric
history. The Trial court noted:

12
Defendant Officers next object that “the right [to be
free from detention under the circumstances] was not
clearly established,” arguing that based on DupuisMays’s psychiatric history, Defendant Officers
reasonably concluded he was a danger to himself
and/or others. See Dkt. #71 at 3-4. First, the Court
notes that Defendant Officers have not made this
argument prior to their objections to the Report. The
Fifth Circuit has held that issues raised for the first
time in objections to the report of a magistrate judge
are not properly before the Court. See Finley v.
Johnson, 243 F.3d 215, 218 n. 3 (5th Cir. 2001) (citing
United States v. Armstrong, 951 F.2d 626, 630 (5th Cir.
1992)).
Even considering Defendant Officers’ argument, the
Court finds two fatal flaws: first, Defendant Officers,
pursuant to the record before the Court, did not have
Dupuis-Mays’s “psychiatric history” at any time during
the incident. The record contains Dupuis-Mays’s
Medical Records from Medical City Dallas Hospital
(Dkt. #65-1 at 8-10); however, such records were
obtained during the subsequent investigation after the
incident. Second, Defendant Officers have admitted
that Dupuis-Mays was not violent when they arrived at
the scene and throughout the extended period of time
prior to being detained. See Dkt. #71 at 3-4.
Furthermore, Defendant Officers cite no case law for
the proposition that, based on a person’s behavioral
and psychiatric history, police officers may lawfully
detain a non-violent person.1
1

The panel revised the record to support probable cause, ignoring
the Trial Court by stating “The parties do not dispute that Dupuis

13
The Defendants also objected to the findings
of excessive force. The Trial Court reasoned:
In support, Defendant Officers offer a new and
different interpretation of the video evidence before the
Court, now arguing that “Dupuis-Mays’s own
movement and momentum result[ed] in his
accidentally striking the filing cabinet.” See id. at 5.
The Court again notes that Defendant Officers have
not made this argument prior to their objections, and
thus, the issue is not properly before the Court. See
Finley, 243 F.3d at 218 n. 3 (citing Armstrong, 951 F.2d
at 630). Even considering Defendant Officers’
argument, however, the Magistrate Judge found a jury
could find Defendant Officers’ videotaped use of force
was unreasonable, especially when viewed in
conjunction with Sergeant Agan’s report. Although
Defendant Officers now offer a different description of
the events seen on the video, this does not change the
objective video evidence: a seated, handcuffed, and
disabled person was forcibly brought to the ground by
two police officers and suffered a serious laceration to
the head. Accordingly, the Court finds no error in the

Mays is “mentally ill” under Texas law.” That issue was disputed.
At one time or another every person exhibits some abnormal
behavior which might be perceived by some as symptomatic of a
mental or emotional disorder, but which is in fact within a range
of conduct that is generally acceptable. Obviously, such behavior
is no basis for compelled treatment and surely none for
confinement. Addington v. Texas, 441 U.S. 418, 426-27, 99 S. Ct.
1804, 1810 (1979)

14
Magistrate Judge’s conclusion, and this objection is
likewise overruled.2
The Defendants also objected to the
conclusion they fabricated their reports to justify
probable cause which was a constitutional
violation. The Trial Court noted:
Defendant Officers next object to the Magistrate
Judge’s finding that their reporting falsities were
consequential to Dupuis-Mays’s unlawful detention and
excessive force claims. Defendant Officers rely on the
timing of the submitted reports to argue they could not
have possibly contributed to any deprivation of DupuisMays’s constitutional rights. See id. Namely,
Defendant Officers state they submitted their reports
“long after Dupuis-Mays was tak[en] into custody.” As
the Magistrate Judge stated, however, these reporting
falsities obstructed the investigation regarding the
incident and continue to serve as a potential basis for
the justification of the alleged unlawful detention and
use of excessive force. For this reason, they are proper
matters for a jury to review.

2

The panel stated preexisting law must dictate, that is truly
compel … that what the defendant is doing violates federal law in
the circumstances. (pg 7). A finding of “mental illness” alone
cannot justify a State’s locking a person up against his will and
keeping him indefinitely in simple custodial confinement.
Assuming that that term can be given a reasonably precise content
and that the “mentally ill” can be identified with reasonable
accuracy, there is still no constitutional basis for confining such
persons involuntarily if they are dangerous to no one and can live
safely in freedom. O’Connor v. Donaldson, 422 U.S. 563, 575, 95 S.
Ct. 2486, 2493 (1975)

15
B. The Decisions Below
A panel of the Fifth Circuit accepted jurisdiction
under the collateral order doctrine stating the
doctrine…” does not apply when the summary
judgment motion is based on a claim of [QI]”. Then
stated they exercised jurisdiction to decide whether the
district court erred in concluding as a matter of law the
officers are not entitled to [QI] on a given set of facts.3
The panel reversed and rendered judgement for the
officers, but on a different ground. App. A.
The panel skipped the first prong of qualified
immunity relating to the merits of Rich’s Fourth
Amendment claim and proceeded directly to the second
prong, which it defined “as we have jurisdiction only to
decide whether the district court erred in concluding as

3

It is unclear which facts the panel was referencing: the ones in
the record, the Magistrates report, The Trial Court’s order, the
video evidence or ipse dixit. For instance, the panel stated the IA
investigation was prompted by Hudgens’ false report. To the
contrary, the Magistrate stated the IA was initiated by Green
Oaks because the officers falsely told the nurses “Mays bumped his
head while they were not in the room”. Later, Green Oaks again
reiterated to Agan “come see the video”. The panel also in footnote
3 stated: “We will not, however, accept a plaintiff’s version of the
facts “for purposes of [QI] when it is ‘blatantly contradicted’ and
utterly discredited’ by video recordings.” The plaintiff is providing
the Court an internet link to the 911 call, the Officers video to the
Group home with its audio, the video captured conversations at the
Group Home, the hand cuffing, the drive to Green oaks in Dallas
Texas, the 20 minute audio silence after Mays asks where they are
and what are they doing, and the video from Green Oaks with
Hudgens audio overlaid after Hudgens learned Palko had turned
off the microphone for the Courts convenience and because of the
footnote.

16
a matter of law that officials are not entitled to [QI] on
a given set of facts”:
whether the allegedly violated constitutional
rights were clearly established at the time of the
incident; and, we must be able to point to
controlling authority- that defines the contours
of the right in question with a high degree of
particularity.” “In sum, QI “represents the norm,
and the courts should deny a defendant
immunity only in rare circumstances”. “It is the
Plaintiff’s burden to find a case in his favor that
does not define the law at a high level of
generality” if so, whether the conduct of the
defendants was objectively unreasonable in the
light of that then clearly established law.
App. 10 (emphasis in original) (quoting Romero v. City
of Grapevine and Vasnn v. Cityn of Southhaven).
(App. 7-9)
The court concluded Palko and Hudgens acted
reasonably and were therefore entitled to immunity in
light of the facts of the situation, such that the facts
recited in the Magistrate Judge’s Report and the
District Court’s findings never existed.
Rich petitioned for rehearing en banc, which the
court denied. App. D. Rich urged the Circuit to follow
Tolan and its Kinney decision regarding the exercise of
jurisdiction, to no avail.

17
REASONS FOR GRANTING THE PETITION
I.

The Fifth Circuit’s Exercise of Collateral
Order Jurisdiction confounds the question
of when the “Collateral Order” doctrine
applies. Despite a cogent and specific
review by the Magistrate Judge and Trail
Court which identified the disputed issues
of material fact and the constitutional
violations, the Court never questioned
jurisdiction.

The collateral order doctrine is an exception to the
final order requirement of 1291. In the context of [QI]
the circuits are split on what will invoke the doctrine.
In the second circuit:
We have held that “a district court’s mere assertion
that disputed factual issues exist[] [is not] enough to
preclude an immediate appeal.” Salim v. Proulx, 93
F.3d 86, 89 (2d Cir. 1996). Immediate appeal is
available from fact-related rulings “as long as the
defendant can support an immunity defense on
stipulated facts, facts accepted for purposes of the
appeal, or the plaintiff’s version of the facts that the
district judge deemed available for jury resolution.” Id.
at 90; see also Terebesi v. Torreso, 764 F.3d 217 (2d Cir.
2014); Poe, 282 F.3d at 132; Jemmott v. Coughlin, 85
F.3d 61, 65-66 (2d Cir. 1996). Raspardo v. Carlone, 770
F.3d 97, 112 (2d Cir. 2014).

18
In the Seventh Circuit:
See Jones v. Clark, 630 F.3d 677, 680 (7th Cir. 2011)
(“In a collateral-order appeal like this one, where the
defendants say that they accept the plaintiff’s version
of the facts, we will take them at [**8] their word and
consider their legal arguments in that light.”); Knox v.
Smith, 342 F.3d 651, 656-57 (7th Cir. 2003) (following
the same approach). Strand v. Minchuk, 910 F.3d 909,
914 (7th Cir. 2018) If we detect a “back-door effort” to
contest facts on appeal, we lack jurisdiction. Jones, 630
F.3d at 680; see also Gutierrez v. Kermon, 722 F.3d
1003, 1010 (7th Cir. 2013) (reiterating limits of
appellate jurisdiction over appeal from denial of
qualified immunity and stating that a party “effectively
pleads himself out of court by interposing disputed
factual issues in his argument”).Strand v. Minchuk,
910 F.3d 909, 914 (7th Cir. 2018)
In the Fifth Circuit:
We therefore “can simply take, as given, the facts
that the district court assumed when it denied
summary judgment for that (purely legal) reason.”
Johnson v. Jones, 515 U.S. 304, 319, 115 S. Ct. 2151,
132 L. Ed. 2d 238 (1995). We also have jurisdiction over
the legal issues of whether factual disputes are
material. See Short v. West, 662 F.3d 320, 325 (5th Cir.
2011). We give de novo review to the legal issues
relating to qualified immunity. Id. King v. Handorf,
821 F.3d 650, 653 (5th Cir. 2016)
On interlocutory appeal of the denial of summary
judgment on the issue of qualified immunity, this
court’s jurisdiction is very limited. “Although a denial

19
of a defendant’s motion for summary judgment is
ordinarily not immediately appealable, the Supreme
Court has held that the denial of a motion for summary
judgment based upon qualified immunity is a collateral
order capable of immediate review.” Kinney, 367 F.3d
at 346. “Our jurisdiction is significantly limited,
however, for it extends to such appeals only ‘to the
extent that [the denial of summary judgment] turns on
an issue of law.’” Id. (internal citation [**12] omitted).
Dean v. Phatak, 911 F.3d 286, 291 (5th Cir. 2018)
We have jurisdiction to review a district court’s
denial of qualified immunity “only to the extent that
the appeal concerns the purely legal question whether
the defendants are entitled to qualified immunity on
the facts that the district court found sufficiently
supported in the summary judgment record.” Kinney v.
Weaver, 367 F.3d 337, 347 (5th Cir. 2004) [*662] (en
banc). “[W]e lack the power to review the district
court’s decision that a genuine factual dispute exists”
and “instead consider only whether the district court
erred in assessing the legal significance of conduct that
the district court deemed sufficiently supported.” Id. at
348. Hamilton v. Kindred, 845 F.3d 659, 661-662 (5th
Cir. 2017).
Stated differently, in an interlocutory appeal we
cannot challenge the district court’s assessments
regarding the sufficiency of the evidence—that is, the
question whether there is enough evidence in the
record for a jury to conclude that certain facts are
true.” Kinney v. Weaver, 367 F.3d 337, 346-47 (5th Cir.
2004) (en banc) (internal quotation marks and citations
omitted). Although we lack jurisdiction to resolve “the

20
genuineness of any factual disputes,” we have
jurisdiction to determine “whether the factual disputes
are material.” Kovacic v. Villarreal, 628 F.3d 209, 211
n.1 (5th Cir. 2010); Trent v. Wade, 776 F.3d 368, 376
(5th Cir. 2015).
“Where factual disputes exist in an interlocutory
appeal asserting qualified immunity, we accept the
[plaintiff’s] version of the facts as true.” Id. at 348
(citation omitted). We do not have jurisdiction to rule
on contentions that require us to resolve factual
disputes in defendant’s favor. Id. Juarez v. Aguilar, 666
F.3d 325, 331-332 (5th Cir. 2011).
Given the clear, unequivocal, and emphatic
pronouncement of the district court that it was denying
qualified immunity because Charles had borne his
burden of demonstrating the presence of issues of fact,
of which none can contest the genuineness, our lack of
appellate jurisdiction is pellucid -- and should have
been to counsel for Grief. Every argument in counsel’s
brief to the court might be correct and might
ultimately prevail: They simply cannot be heard at this
juncture.
Charles v. Grief, 507 F.3d 342, 343 (5th Cir. 2007).
This court has jurisdiction over the appeal only to
the extent it “challenges the materiality of factual
issues, but” not when “it challenges the district court’s
genuineness ruling—that genuine issues exist
concerning material facts.” Bazan ex rel. Bazan v.
Hidalgo Cnty., 246 F.3d 481, 490 (5th Cir. 2001). When
the basis of the district court’s denial is unclear, the
appellate court “can either scour the record and

21
determine what facts the plaintiff may be able to prove
at trial and proceed to resolve the legal issues, or
remand so that the trial court can clarify the order.”
Thompson v. Upshur Cnty., Tex., 245 F.3d 447, 456 (5th
Cir. 2001).
This means that the Court cannot second-guess the
district court’s determination that genuine factual
disputes exist. See id. at 348 (citing Behrens v.
Pelletier, 516 U.S. 299, 313, 116 S. Ct. 834, 133 L. Ed.
2d 773 (1996)). Rather, the Court will “consider only
whether the district court erred in assessing the legal
significance of the conduct that the district court
deemed sufficiently supported.” Id. (citing Behrens, 516
U.S. at 313; Jones, 515 U.S. at 313). In doing so, the
Court views the facts in the light most favorable to the
plaintiff. See Gonzales v. Dallas Cnty., 249 F.3d 406,
411 (5th Cir. 2001) (“[O]n interlocutory appeal the
public official must be prepared to concede the best
view of the facts to the plaintiff and discuss only the
legal issues raised by the appeal.” (citing [*333]
Berryman v. Rieger, 150 F.3d 561, 562-63 (6th Cir.
1998))).
See also, We cannot and will not revise the district
court’s identification of genuine fact disputes. Cole v.
Carson, 905 F.3d 334, 347 (5th Cir. 2018).
The Magistrate Judge made very specific findings
regarding the disputed issues of material fact
regarding probable cause for the detention and the
subsequent use of force on a handcuffed disabled
person. The panel nevertheless exercised jurisdiction
and never addressed the disputed issues of material

22
fact as recited by the Magistrate Judge and the district
court.
Therefore the Circuit should be obliged to recite the
findings of the Trail Court which support the exercise
of “collateral order” jurisdiction. Otherwise the Circuits
will be flooded with appeals from the denial of
Qualified Immunity.
Every year the courts of appeals decide hundreds of
cases in which they must determine whether thin
evidence provided by a plaintiff is just enough to
survive a motion for summary judgment or not quite
enough. Salazar-Limon v. City of Hous., 137 S. Ct.
1277, 1277 (2017).
This is not one of those cases.
II.

The Fifth Circuit’s Decision Transforms the
Second Prong of Qualified Immunity by
Injecting Factual Reasonableness into the
Inquiry

Two questions must be answered when a defendant
asserts qualified immunity.
In resolving questions of qualified immunity at
summary judgment, courts engage in a two-pronged
inquiry. The first asks whether the facts, “[t]aken in
the light most favorable [*656] to the party asserting
the injury, . . . show the officer’s conduct violated a
[federal] right[.]” Saucier v. Katz, 533 U. S. 194, 201,
121 S. Ct. 2151, 150 L. Ed. 2d 272 (2001). When a
plaintiff alleges excessive force during an investigation
or arrest, the federal right at issue is the Fourth
Amendment right against unreasonable seizures.

23
Graham v. Connor, 490 U. S. 386, 394, 109 S. Ct. 1865,
104 L. Ed. 2d 443 (1989). The inquiry into whether this
right was violated requires a balancing of “‘the nature
and quality of the intrusion on the individual’s Fourth
Amendment interests against the importance of the
governmental interests alleged to justify the
intrusion.’” [**1866] Tennessee v. Garner, 471 U. S. 1,
8, 105 S. Ct. 1694, 85 L. Ed. 2d 1 (1985); see Graham,
supra, at 396, 109 S. Ct. 1865, 104 L. Ed. 2d 443.
The second prong of the qualified-immunity
analysis asks whether the right in question was
“clearly established” at the time of the violation. Hope
v. Pelzer, 536 U. S. 730, 739, 122 S. Ct. 2508, 153 L. Ed.
2d 666 (2002). Governmental actors are “shielded from
liability for civil damages if their actions did not violate
‘clearly established statutory or constitutional rights of
which a reasonable person would have known.’” Ibid.
“[T]he salient question . . . is whether the state of the
law” at the time of an incident provided “fair warning”
to the defendants “that their alleged [conduct] was
unconstitutional.” Id., at 741, 122 S. Ct. 2508, 153 L.
Ed. 2d 666. Tolan v. Cotton, 572 U.S. 650, 655-56, 134
S. Ct. 1861, 1865-66 (2014).
Rather than apply this Court’s precedent defining
and distinguishing the two prongs of qualified
immunity, the Fifth Circuit jumbles them together and
injects merits-related factual reasonableness into the
purely legal, second prong immunity analysis. This
approach began in a decision predating Saucier. In
Hare, the Fifth Circuit announced that the second
prong “is better understood as two separate inquiries.”
135 F.3d at 326. The first of these is whether the right

24
at issue was clearly established, while the second is
“whether the conduct of the defendants was objectively
unreasonable in the light of that then clearly
established law.” Id. By subdividing the second prong
this way, the court licensed consideration of factual
reasonableness as part of the immunity analysis rather
than the merits. In Hare, for instance, the court found
the defendants immune under the second prong based
on the facts of the case rather than any reasonable
legal misunderstanding by officials. See id. at 329 (“we
hold that the undisputed facts, viewed in the light most
favorable to the nonmovant, do not constitute
objectively unreasonable conduct when applied against
the deliberate indifference standard”).
Decisions after Hare have defined the second prong
the same way.4 And the court repeated the error in this
case. The panel’s opinion describes something other
than what the Magistrate Judge stated and that the
District Court reaffirmed and confirmed. The panel
doesn’t mention where the lower court supposedly
erred.

4

See, e.g., Tarver v. Edna, 410 F.3d 745, 750 (5th Cir. 2005); Felton
v. Polles, 315 F.3d 470, 477 (5th Cir. 2002), overruled on other
grounds, Burlington Northern & Santa Fe Ry. Co. v. White, 548
U.S. 53 (2006); Estate of Sorrells v. City of Dallas, 45 Fed. Appx.
325, 2002 WL 1899592 at * 2 (5th Cir.), cert. denied, 537 U.S. 1072
(2002); Palmer v. Johnson, 193 F.3d 346, 351 (5th Cir. 1999).

25
The panel opinion without basis in the record
states: “ The parties do not dispute that Mays is
“mentally ill” under Texas law. It ignored and didn’t
question the recitation of the Magistrate Judge and the
Trial Judge.
This is a first prong analysis about whether the
arrest was reasonable in light of the events that
occurred on the scene. It has nothing to do with the
legal, second prong question whether applicable law
was sufficiently settled in this context for Palko and
Hudgens to appreciate that their conduct was
unlawful. The court committed this error because it
used the circuit’s qualified immunity test first
enunciated in Hare, which predates Saucier’s
clarification of the two different prongs. It also required
Plaintiff to cite a case in his favor that does not define
the law at a high degree of generality to demonstrate
the violation was clearly established. (App. 9)
A case on point is not required. “Of course, there can
be the rare obvious case, and where the unlawfulness
of the officer’s conduct is sufficiently clear even though
existing precedent does not address similar
circumstances.” City of Escondido v. Emmons, 139 S.
Ct. 500, 504, 202 L. Ed. 2d 455, 460, (2019).
III.

Circuit Courts Are Divided in How They
Define and Apply the Second Prong of
Qualified Immunity

The Fifth Circuit’s decision highlights two related
divisions in how courts of appeals approach the second
prong of qualified immunity. First, the decision echoes
the split among and even within circuits about

26
jurisdiction and whether objective unreasonableness
should be a separate or third element plaintiffs have to
prove to overcome the defense. For example, the Second
Circuit has been divided about whether the qualified
immunity test has two or three prongs, the third
resembling the Fifth Circuit’s bifurcated scheme and
asking, “even if the right was ‘clearly established,’
whether it was ‘objectively reasonable’ for the officer to
believe the conduct at issue was lawful.” Gonzalez v.
City of Schenectady, 728 F.3d 149, 154 (2d Cir. 2013);
see Bailey v. Pataki, 708 F.3d 391, 404 n. 8 (2d Cir.
2013) (“There is some tension in our Circuit’s cases as
to whether the qualified immunity standard is of two or
three parts, and whether the “reasonable officer”
inquiry is part of step two – the “clearly established”
prong – or whether it is a separate, third step in the
analysis”); Taravella v. Town of Walcott, 599 F.3d 129,
136 (2d Cir. 2010) (Straub, J., dissenting) (collecting
two-step and three-step decisions).
Then-Judge Sotomayor pointed out that the Second
Circuit’s “approach splits the single question of whether a
right is ‘clearly established’ into two distinct steps,
contrary to Supreme Court precedent.” Walczyk, 496 F.3d
at 166 (Sotomayor, J., dissenting). As she explained:
Contrary to what our case law might suggest,
the Supreme Court does not follow this ‘clearly
established’ inquiry with a second, ad hoc
inquiry into the reasonableness of the officer’s
conduct. Once we determine whether the right
at issue was clearly established for the
particular context that the officer faced, the
qualified immunity inquiry is complete.

27
Id. at 166-67. Other judges on that court have
agreed with Justice Sotomayor. See Taravella, 599 F.3d
at 138 (Straub, J., dissenting) (“we run the risk that
lower courts will interpret the third step – the
‘objective reasonableness’ inquiry – as a hurdle that is
somehow distinct from, and in addition to, the
‘reasonableness’ inquiry that is already a part of the
second step”). And some panels have simply ignored
the intra-circuit conflict, disregarded the circuit’s own
precedent, and applied the standard two-pronged test
from Saucier. See, e.g., Zalaski v. City of Hartford, 723
F.3d 382, 388 (2d Cir. 2013); Russo v. City of
Bridgeport, 479 F.3d 196, 211 (2d Cir.), cert. denied,
552 U.S. 818 (2007).
There is analogous division within the Sixth Circuit.
Some panels apply a three-part test and ask a third
question about reasonableness akin to that employed
in the Fifth and Second Circuits: “whether the plaintiff
has offered sufficient evidence to indicate that what the
official allegedly did was objectively unreasonable in
light of the clearly established constitutional rights”
Holzemer v. City of Memphis, 621 F.3d 512, 519 (6th
Cir. 2010). Other decisions note that this third question
need only be considered “in some instances” to
“increase the clarity of the proper analysis” – leaving it
uncertain when and whether the test has two or three
parts. See, e.g., Quigley v. Tuong Vinh Thai, 707 F.3d
675, 681 n. 2 (6th Cir. 2013); Hensley v. Gassman, 693
F.3d 681, 687 n. 5 (6th Cir. 2012), cert. denied, 133 S.
Ct. 1800 (2013). One panel called the third step
“redundant” in excessive force cases, Grawey v. Drury,
567 F.3d 302, 309 (6th Cir. 2009); another objected to

28
it as inconsistent with Saucier, see Dunigan v. Noble,
390 F.3d 486, 491 n. 6 (6th Cir. 2005).
Other circuits have also struggled with whether to
include a third prong requiring a separate and
additional inquiry into objective reasonableness. See,
e.g., Maldonado v. Fontanes, 568 F.3d 263, 269 (1st Cir.
2009) (abandoning three-part test with third question
on objective reasonableness in favor of Saucier’s twopart analysis); CarePartners LLC v. Lashway, 545 F.3d
867, 876 n. 6 (9th Cir. 2008) (“We have previously
expressed the qualified immunity test as both a twostep test and a three-step test”), cert. denied, 129 S. Ct.
2382 (2009). As Second Circuit Judge Straub points
out, “the case law is divided, not only in our Circuit,
but also in courts around the country. Several circuits
have used a three-step analysis, even after the
Supreme Court mandated a two-step inquiry in
Saucier…. [C]ourts have been inconsistent in their
treatment of the proper standard for qualified
immunity.” Taravella, 599 F.3d at 138 n. 2 (Straub, J.,
dissenting). LaMont v. New Jersey, 637 F.3d 177, 185
(3d Cir. 2011) (“In short, the dispute in this case is
about the facts, not the law. The doctrine of qualified
immunity is therefore inapposite”).
Other circuits have also maintained the proper
division between the two prongs. See, e.g., Estate of
Escobedo v. Bender, 600 F.3d 770, 779 n. 3 (7th Cir.
2010) (objective reasonableness of officers’ tactics in
using force relates to first prong of qualified immunity
analysis, not second), cert. denied, 131 S. Ct. 463
(2010); Cowan v. Breen, 352 F.3d 756, 762 (2d Cir.
2003) (“if the analysis focuses on whether an officer

29
made a reasonable mistake of fact that justified his
conduct, what is being examined is whether there was
a constitutional violation, not whether the officer is
entitled to qualified immunity”); Gould v. Davis, 165
F.3d 265, 273 (4th Cir. 1998) (“The question in
qualified immunity is not whether the officers acted
‘reasonably’ in the sense in which that term is used in
tort law. The question is whether a reasonable person
would have known about controlling law, once that law
is deemed to have been clearly established under the
second prong”). The Fifth Circuit’s decision illustrates
how subdividing the second prong to require separate
proof of objective unreasonableness leads to the
misapplication of the test for qualified immunity,
giving rise to a further circuit split.
IV.

The Court Should Resolve the Confusion
Surrounding Consideration of Factual
Unreasonableness in the Qualified
Immunity Analysis

There are four important reasons to address the
division and uncertainty over how lower courts account
for factual unreasonableness when deciding qualified
immunity.
First, then-Judge Sotomayor has explained how
subdividing the second prong and considering
reasonableness as a separate component or as a third
question altogether alters the balance struck by the
qualified immunity doctrine and makes it unduly
difficult for plaintiffs to recover for constitutional
violations. As she wrote when dissenting from the
Second Circuit’s practice of treating reasonableness as
a separate third step:

30
I recognize that the distinction I am drawing is
a fine one, but I believe it has real consequences.
Our approach does not simply divide into two
steps what the Supreme Court treats singly,
asking first, whether the right is clearly
established as a general proposition, and second,
whether the application of the general right to
the facts of this case is something a reasonable
officer could be expected to anticipate. Instead,
we permit courts to decide that official conduct
was “reasonable” even after finding that it
violated clearly established law in the
particularized sense. By introducing
reasonableness as a separate step, we give
defendants a second bite at the immunity apple,
thereby thwarting a careful balance that the
Supreme Court has struck “between the
interests in vindication of citizens’ constitutional
rights and in public officials’ effective
performance of their duties.”
Walczyk, 496 F.3d at 168-69 (Sotomayor, J.,
dissenting) (emphasis in original) (quoting Anderson v.
Creighton, 483 U.S. 635, 639 (1987)).
This Court has long recognized that, “[i]f the law
was clearly established, the immunity defense
ordinarily should fail, since a reasonably competent
public official should know the law governing his
conduct.” Crawford-El v. Britton, 523 U.S. 574, 591
(1998) (quoting Harlow v. Fitzgerald, 457 U.S. 800,
818-19 (1982)). But repeating consideration of factual
reasonableness when resolving the second prong –
giving defendants the “second bite at the immunity

31
apple” then-Judge Sotomayor described – risks
immunizing unconstitutional behavior even when the
defendant should have known what the law demanded
in the situation at hand. It also places a thumb on the
scale in favor of the defendant by erecting an extra and
wholly unnecessary hurdle for the plaintiff. See
Taravella, 599 F.3d at 138 (Straub, J., dissenting)
When a court considers the first prong, finds a
violation, but then confers immunity under the second
prong, it “says ‘Although this official is immune from
damages today, what he did violates the Constitution
and he or anyone else who does that thing again will be
personally liable.’” Camreta v. Greene, 131 S. Ct. 2020,
2029 (2011). Such rulings “promote clarity – and
observance – of constitutional rules” in the future, just
as repeated avoidance of constitutional questions
through immunity “threatens to leave standards of
official conduct permanently in limbo.” Id. at 2030-31.
“Qualified immunity thus may frustrate the
development of constitutional precedent and the
promotion of law-abiding behavior.” Id. at 2031
(citations and quotations omitted); see also Bunting v.
Mellen, 541 U.S. 1019, 1024 (2004) (Scalia, J.,
dissenting from denial of certiorari).
The danger of excessive constitutional avoidance in
Fourth Amendment cases rises considerably if Circuit
courts can exercise “collateral order” jurisdiction and
decide factual reasonableness as part of the legal
immunity inquiry notwithstanding the trial courts
identification of the disputed issues of material fact
giving rise to the concomitant Constitutional violation.
Whether an arrest or use of force was reasonable in

32
light of the facts of the incident determines the merits
of a Fourth Amendment claim. If that question is
shunted into the second prong intended to resolve
immunity, as the Fifth Circuit framework encourages
and as occurred in this case, trial courts will have even
fewer occasions to examine specific law enforcement
practices and decide whether they comply with the
Constitution. More disputes on the merits will be
decided under the guise of determining immunity. The
first prong, created to sort out the facts of the case and
set the constitutional boundaries governing official
action, will have little to do if the Fifth Circuit’s
approach stands.
Third, importing factual reasonableness into the
immunity prong will diminish the vital role trial courts
and juries play in establishing what is reasonable
under the Fourth Amendment. Juries represent the
“conscience” or “voice” of the community. See, e.g.,
Jones v. United States, 527 U.S. 373, 382 (1999)
(capital sentencing); BMW of North America, Inc. v.
Gore, 517 U.S. 559, 600 (1996) (Scalia, J., dissenting)
(punitive damages). Deciding whether conduct is
reasonable is typically a jury function. Juries “are more
representative institutions than is the judiciary; they
reflect more accurately the composition and
experiences of the community as a whole, and
inevitably make decisions based on community values
more reliably, than can that segment of the community
that is selected for service on the bench.” Spaziano v.
Florida, 468 U.S. 447, 486-87 (1984) (Stevens, J.,
concurring in part and dissenting in part).

33
Juries were meant to play a central role in
determining and policing the reasonableness of
government action under the Fourth Amendment. See,
e.g., Akil Reed Amar, The Bill of Rights as a
Constitution, 100 YALE L. J. 1131, 1180 (March 1991)
(“Reasonableness vel non was a classic question of fact
for the jury; and the Seventh Amendment, in
combination with the Fourth, would require the federal
government to furnish a jury to any plaintiff-victim
who demanded one, and protect that jury’s finding of
fact from being overturned by any judge or other
government official”). Today too, juries perform this
invaluable service. As the Third Circuit recognized in
an excessive force case, “since we lack a clearly defined
rule for declaring when conduct is unreasonable in a
specific context, we rely on the consensus required by
a jury decision to help ensure that the ultimate legal
judgment of ‘reasonableness’ is itself reasonable and
widely shared.” Abraham v. Raso, 183 F.3d 279, 289-90
(3d Cir. 1999).
Because deciding whether the law is clearly
established is reserved to the court as a legal matter,
resolving cases under the second prong as formulated
by the Fifth Circuit cuts juries out of the task of
assessing whether actions by officers are factually
reasonable. As a result, Fourth Amendment law will
increasingly lack the essential input of ordinary
citizens, while judges assume the task of parsing
through questions of fact better suited to jurors. That
is what occurred here – the panel rearranged the facts
of the incident and decided to render a judgment on
whether Mays was a threat to himself or others but
then it used that factual determination to make

34
what is supposed to be an entirely legal decision on
immunity.
V.

The Fifth Circuit’s Decision is Erroneous

Finally, the Fifth Circuit erred in granting
summary judgment.
In addition, the panel completely ignored the factual
dispute over whether probable cause existed for the
arrest of Mays.
Aren’t police officers on notice that the Constitution,
under the circumstances of this case, requires them to
follow the specific mental health statute; to follow the
form that tracks the statute; that they are not to
mislead the mentally challenged person as to the
reason for the warrantless detention, that departing
from the statute, fabricating the reasons for the mental
health detention and beating the disabled person while
seated and handcuffed, thereby causing serious injury
is a violation. That is self-evident.
Additionally, the law is well defined:
This Court repeatedly has recognized that civil
commitment for any purpose constitutes a significant
deprivation of liberty that requires due process
protection. See, e.g., Jackson v. Indiana, 406 U.S. 715
(1972); Humphrey v. Cady, 405 U.S. 504 (1972); In re
Gault, 387 U.S. 1 (1967); Specht v. Patterson, 386 U.S.
605 (1967). Moreover, it is indisputable that
involuntary commitment to a mental hospital after a
finding of probable dangerousness to self or others can
engender adverse social consequences to the individual.
Whether we label this phenomena “stigma” or choose to

35
call it something else is less important than that we
recognize that it can occur and that it can have a very
significant impact on the individual.
Addington v. Texas, 441 U.S. 418, 425-26, 99 S. Ct.
1804, 1809 (1979).
A false or scientifically inaccurate report is
equivalent to any other false evidence created by
investigators, such as a falsepolice report; as we
have stated, there is no reason a government
scientific expert “should enjoy immunity greater
than that of other investigators.” 14 As the First
Circuit held, “if any concept is fundamental to
our American system of justice, it is that those
charged with upholding the law are prohibited
from deliberately fabricating evidence . . . .” 15
And, as that court explained, the right of
criminal defendants to be free from false or
fabricated evidence was well settled by 1959 or
earlier. Brown v. Miller, 519 F.3d 231 (5th Cir.
2008).
In assessing the reasonableness of the use of
force, the court must give “careful attention to
the facts and circumstances of each particular
case, including the severity of the crime at issue,
whether the suspect poses an immediate threat
to the safety of the officers or others, and
whether he is actively resisting arrest or
attempting to evade arrest by flight.” Graham v.
Connor, 490 U.S. 386, 396, 109 S. Ct. 1865, 104
L. Ed. 2d 443 (1989).

36
Palko and Hudgens could not have reasonably believed
Mays was a threat to himself or others. The Circuit
never even mentioned the officers tricked Mays into
getting in to their car for a ride. Consequently,
reaching the legal issues raised by this petition would
not be “an essentially academic exercise,” but would
change the outcome of the case.” Pearson v. Callahan,
555 U.S. 223, 237 (2009).
CONCLUSION
The Court should grant the petition for writ of
certiorari.
Respectfully Submitted,
John E. Wall, Jr.
Counsel of Record
LAW OFFICES OF JOHN E. WALL, JR.
5728 Prospect Avenue, Suite 2001
Dallas, Texas 75206-7284
(214) 887-0100 (telephone)
(214) 887-0173 (tele copier)
jwall@jwall-law.com
Counsel for Petitioner

